<html>
<title> - U.S.-RUSSIA NUCLEAR ARMS NEGOTIATIONS: UKRAINE AND BEYOND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





       U.S.-RUSSIA NUCLEAR ARMS NEGOTIATIONS: UKRAINE AND BEYOND

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2014

                               __________

                           Serial No. 113-150

                               __________

        Printed for the use of the Committee on Foreign Affairs








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-711PDF                      WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts

                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Anita E. Friedt, Principal Deputy Assistant Secretary for 
  Nuclear and Strategic Policy, Bureau of Arms Control, 
  Verification, and Compliance, U.S. Department of State.........     7
Mr. Brent Hartley, Deputy Assistant Secretary, Bureau of European 
  and Eurasian Affairs, U.S. Department of State.................    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Anita E. Friedt: Prepared statement..........................    10
Mr. Brent Hartley: Prepared statement............................    20

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39
Written responses from Ms. Anita E. Friedt to questions submitted 
  for the record by the Honorable Dana Rohrabacher, a 
  Representative in Congress from the State of California, and 
  chairman, Subcommittee on Europe, Eurasia, and Emerging Threats    40

 
       U.S.-RUSSIA NUCLEAR ARMS NEGOTIATIONS: UKRAINE AND BEYOND

                              ----------                              


                        TUESDAY, APRIL 29, 2014

                     House of Representatives,    

         Subcommittee on Terrorism, Nonproliferation, and Trade

                                  and

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 1:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the subcommittee) presiding.
    Mr. Poe. Subcommittees will come to order and without 
objection all members may have 5 days to submit statements, 
questions, and extraneous materials for the record and subject 
to the length of limitation in the rules.
    In a matter of weeks, Putin and his commandos stole Crimea. 
Now he is on to Eastern Ukraine. I and other Members of 
Congress were in Ukraine last week and the people were 
rightfully concerned about Putin's next move into their nation.
    According to press reports this morning, Secretary Kerry 
said that we now have intelligence revealing that operatives in 
Ukraine are taking orders directly from Moscow. Secretary Kerry 
also said that some of the same Russian operatives from Crimea 
and Georgia have shown up in Eastern Ukraine.
    When I went to Eastern Ukraine one of the officials gave me 
a wanted poster for what he called Russian saboteurs. It is in 
Ukrainian and he--it is on the screen, I hope it is up--this is 
a copy of the wanted poster and he was willing to pay out of 
his own money for Russian equipment that had been--it was 
confiscated by Ukrainians, everything from machine guns, 
rifles. To anybody that is occupying one of the Ukrainian 
buildings without permission he is willing to offer rewards for 
that.
    So I thought that was quite interesting that they are 
concerned about the insurrection or insurgence in his own part 
of the state.
    I believe these actions should--we should understand that 
we have to reevaluate our agreements with the Russians because 
of their failure to abide by international law in that they 
have entered Crimea, Ukraine and even other Baltic states are 
concerned and so reflected that in conversations with them.
    In my opinion, the Russians are not our allies. They are 
not our friends and we certainly can't take them for their 
word. Exhibit A is the Intermediate Range Nuclear Forces 
Treaty, the INF, and this treaty between the United States and 
Russia places limits on ground-launched ballistic and cruise 
missiles with ranges between 500 and 5,500 kilometers.
    The United States has held up our agreement in the treaty. 
It appears the Russians have not. According to press reports, 
it appears the Russians have tested a ground-launched cruise 
missile from an operational launcher. The Russians have 
responded this is a sea-based missile, which does not fall 
under the treaty.
    There is no way to know if it is a sea-based missile until 
it is actually deployed. But even so, if it was a sea-based 
missile and the Russians tested it on land using an operational 
launcher it is violation of the treaty.
    Either way, the Russians are violating this treaty. 
According to press reports, the administration knew about the 
violation back in 2008. Six years later, the State Department 
says the violation is still under review and has not officially 
classified it as a violation or not. Time for the State 
Department to pick a horse and ride it. Either it is a 
violation or it is not a violation.
    I have introduced H. Con. Res. 94 with Representative 
Rogers and Joe Heck, calling the Russians out for their 
violation and the administration for its refusal to tell it 
like it is.
    We had hoped that a formal determination would be in this 
year's arms control compliance report but the report itself due 
in April is already late.
    Apparently, the State Department needs more time to figure 
out what the rest of us already believe. The Russians do not 
have to worry about violations as much as the New START treaty. 
During negotiations, they gutted the verifications that were in 
the old START treaty.
    The most significant changes were the elimination of 
verification measures for some ICBMs and reduction of total 
number of inspections. When the Senate was debating approval in 
2010, critics argued the treaty was nonsensical because the 
Russians were already at or below the required levels in key 
categories while we had delivery vehicles and warheads that 
were way above these new levels.
    Just like the critics warned, the Russians have since 
undergone the most extensive nuclear modernization since the 
end of the Cold War, all without violating the New START 
treaty. We had a reason to be distrustful of the Russians when 
the New START went into effect in 2010 and we have more reasons 
today.
    The fact is Russia is willing to treat these treaties as 
less than binding when it suits them. That is not how treaties 
are supposed to work. Despite this, the administration has 
pledged to seek deeper cuts in nuclear arms.
    In June 2013, the President called for the reduction of our 
deployed strategic nuclear weapons by up to one-third. My 
personal opinion is this would be dangerous and is misguided, 
based on the information that we have about the Russians.
    Fortunately, Putin may have saved us from ourselves. The 
Russians have ``no apparent interest in further arms reductions 
before 2017,'' according to numerous arms control experts.
    The United States should not continue to seek agreements 
with the Russians when they either cheat or show no interest in 
those agreements. I don't think--it is not now the time to be 
kowtowing to Putin, and I will now turn to the ranking member 
from California for his opening statement, Mr. Sherman, for 5 
minutes.
    Mr. Sherman. I yield to the gentleman from Massachusetts.
    Mr. Poe. The gentleman from Massachusetts, Mr. Keating, is 
recognized for 5 minutes.
    Mr. Keating. I thank Mr. Sherman for allowing me to attend 
a meeting where my presence is required for a quorum and I 
thank Chairman Poe and Chairman Rohrabacher for convening this 
important hearing.
    I would like to begin thanking Ms. Friedt and Mr. Hartley 
for appearing today. Both witnesses have extensive experience 
on Russia and on European security interests. I am looking 
forward to hearing their assessment of the long-term strategic 
implication of Russia's illegal invasion of Crimea, its 
subsequent efforts to destabilize Ukraine's interim government 
and other matters.
    Despite its April 17th pledge to help de-escalate the 
crisis in Ukraine, Russia has done exactly the opposite. The 
role that Russian special forces have played in destabilizing 
Eastern Ukraine is indisputable in supporting so-called 
separatist-coordinated armed attacks on government buildings 
and on orchestrating kidnaps and violence against local 
politicians, reporters and even OSCE monitors.
    Russian disinformation campaigns have only made matters 
worse. Russian forces use the masked warfare and other covert 
tactics seen to signal a strategic shift in its approach to the 
region and to European security.
    It is essential that the United States and NATO allies 
respond. I welcome the administration's decision yesterday to 
impose a third round of sanctions on individuals and entities 
closely linked to the Russian leadership's inner circle.
    I also welcome the decision to impose export restrictions 
on 13 Russian companies and the additional restrictive measures 
on defense exports.
    The goal of these targeted sanctions is to send a clear 
signal that Russian aggression against Ukraine comes at a 
price. I share the President's hope that these measures will 
persuade President Putin to reverse course.
    Unfortunately, I am not optimistic that the steps taken to 
date will be sufficient. I therefore fully support the 
administration's readiness to impose additional penalties if 
Russia continues to press forward including targeted sanctions 
against specific sectors of the Russian economy.
    As the United States moves forward, it is imperative that 
we do so in a coordinated effort with our European allies. I 
applaud today's announcement of further EU sanctions on Russia.
    I look forward to hearing from Mr. Hartley about the status 
of the administration's ongoing discussions with the EU as well 
as plans within NATO to counter Russian aggression and reassure 
our Central European and Baltic allies.
    I also look forward to hearing from Ms. Friedt about the 
status of existing arms and existing control agreements between 
the United States and Russia.
    While further arms control reductions seem unlikely in the 
current environment, I am relieved that the United States and 
Russia have continued to implement the New START agreement 
included by exchanging notifications and conducting on-site 
inspections.
    These exchanges provide much needed stability and 
predictability at a time of increasing mistrust and 
uncertainty. I also support the administration's efforts to 
work through INF treaties' compliance review mechanisms to 
address concerns that Russian activities may be inconsistent 
with its treaties obligations.
    I strongly supported the administration's decision to cut 
off defense cooperation with Russia. I have consistently called 
on our European allies to follow suit and to exercise similar 
scrutiny with respect to defense exports to Russia. However, 
when it comes to nuclear security, the stakes are much too high 
to break off communication.
    Continued implementation of our arms control agreements 
with Russia is essential, especially given the unprecedented 
and unpredictable nature of the crisis in Ukraine. The last 
thing we need is another nuclear arms race in Europe. With 
that, I thank you and yield back.
    Mr. Poe. Gentleman yields back his time. I now will turn to 
the chairman of the Europe, Eurasia, and Emerging Threats 
Subcommittee, Mr. Dana Rohrabacher, from California for 5 
minutes.
    Mr. Rohrabacher. Thank you very much, Chairman Poe, for 
calling this hearing is jointly being held between your 
Terrorism, Nonproliferation, and Trade Subcommittee and the 
subcommittee which I chair of Europe, Eurasia, and Emerging 
Threats.
    During the 1980s, I had the honor of working with and for 
President Ronald Reagan. Through his leadership and strength, 
the United States brought about the collapse of the Evil 
Empire--the Soviet Union.
    I would add that there are many people who I worked with 
during that time period who can't seem to get over that the 
Cold War is over and are still treating the Soviet--the current 
Russian Government as if it was the Soviet Government.
    We are thankful, however, that the world no longer lives in 
fear of annihilation and no longer lives with a Soviet Union 
that is controlled by a diabolical philosophy of Marxism, 
Leninism which motivated people to attempt to put on the world 
a Marxist, an atheistic dictatorship in the name of perfecting 
humankind.
    We are thankful that that world has been changed and that 
reality no longer is present and that we no longer live in fear 
of annihilation between--of a nuclear exchange between those 
who are motivated by this evil theory--Marxism, Leninism, 
communism--and the people of the free world.
    One of Reagan's greatest accomplishments was negotiating 
and signing the Intermediate Range Nuclear Forces Treaty, which 
banned two entire categories of horrific weapons.
    I look forward to this hearing today from witnesses about 
the current efforts to maintain and verify the provisions of 
that agreement.
    I look forward in the future to be discussing with my 
colleagues some of the fundamental information that they have 
gleaned from their visits to Ukraine and other places and to 
have a broader discussion of the nature of the government in 
Russia today and the threat that it poses or does not pose to 
the free world as compared to what it was like when I worked 
for Ronald Reagan in the 1980s.
    I also want to speak about another power when we are 
discussing this issue Mr. Chairman. We should not lose sight 
that we are not just talking about Russia and the United 
States.
    We are talking about other nuclear weapons in other 
countries in relationship to what we are doing with the 
Russians and that is, what is Communist China doing and what 
are we doing with Russia and other countries that relate to 
this very issue of strategic weapons with Communist China?
    I fear that by continuing to focus our arms control efforts 
only on Russia while excluding China we are making a grave 
miscalculation. Our negotiations with Russia dictate our 
nuclear posture and define our military capabilities.
    It should be a major concern that China is not included in 
these limits including caps set by the New Strategic Arms 
Limitation Treaty signed in 2010.
    Over the past two decades the People's Liberation Army, the 
armed wing of the Communist Party of China, I might add, has 
engaged in a massive arms build-up.
    Their capability has increased in every area. It is 
illogical to believe that China's strategic forces and their 
nuclear stockpile have not also, likewise, been expanded and 
improved. The United States-China Economic Security Review 
Commission stated in 2012 the PLA continues to modernize and 
expand its nuclear stockpile.
    China is now on the cusp of obtaining a credible nuclear 
triad of land-based intercontinental ballistic missiles and 
submarine-launched ballistic missiles and air-dropped nuclear 
bombs.
    We also know, thanks to the research by Dr. Phillip Karber 
of Georgetown University, that China has built some 3,000 miles 
of underground tunnels to store and to transport their nuclear 
missiles and warheads.
    This secret effort by the Chinese military is so massive 
that it is known as the Underground Great Wall. Beyond this 
incredible infrastructure, China is also researching hypersonic 
missiles, ICBMs with maneuvering warheads which then can 
outmaneuver our defensive systems.
    Communist China, in short--and in closing, I would say--
Communist China must be included in any discussion of arms 
control and if we focus only on Russia we are doing a great 
disservice to the security of our country.
    Addressing concerns and priorities with Russia does remain 
important and the things that are being said today need to be 
taken into consideration.
    Ignoring China's strategic weapons is not an option and 
will lead us to a much more dangerous world. They must be part 
of this discussion today and hopefully in the weeks ahead. 
Thank you, Mr. Chairman.
    Mr. Poe. The Chair recognizes the ranking member from the 
Terrorism Subcommittee, Mr. Sherman from California, for 5 
minutes.
    Mr. Sherman. If you watch American television you would 
think foreign policy is as simple as a cheap Western. Some 
people are in white hats. Some cowboys are in black hats. If 
you watch Russian television, you come to the same conclusion 
only the hat colors have been changed.
    If you review what has happened you see that this is far 
more complicated. A pro-Russian President was elected in 
legitimate elections in the Ukraine. That legitimately elected 
President broke his promises, turned his policy on a 
fundamental issue.
    Democratic-elected Presidents have been known to do that. 
He was swept from power by an insurrection. Those in the 
insurrection occupied Maidan and it is considered a criminal 
act to use armed forces--organized government armed forces to 
dislodge them. Now the government that has taken over in Kiev 
is using armed government forces to dislodge Eastern Ukrainian 
occupiers not of Maidan but of various government buildings.
    Throughout foreign policy we are faced with the tension 
between territorial integrity and self-determination. Those 
were the two greatest wars fought on our own territory--our 
fight for self-determination from the British and our fight for 
our territorial integrity and against the self-determination 
objectives of the confederate states. We look at Crimea as a 
effort at the self-determination of the Russian-speaking 
majority there as an illegal act.
    We used our Air Force to achieve the independence of 
Kosovo, which, like the Crimea, was a autonomous region within 
a republic, which was a relatively newly independent republic, 
having seceded from a federation--one seceding from the 
Yugoslav federation, the other seceding from the Soviet Union.
    So we have been on both sides of territorial integrity and 
self-determination both on our own territory in the first 150 
years of our existence and in Eastern Europe more recently.
    The Russians are interfering in the Eastern Ukraine. Our 
friends in Kiev are not without fault. They have adopted a 
change in law that would strip the Russian language of its 
official status in its southern and eastern provinces.
    Fortunately, that law was vetoed. But, clearly, a 
Parliament, and I should point out a Parliament in which many 
of the Eastern Ukrainian members felt unsafe and did not 
attend, would be allowed to pass such a law shows that this is 
not a government dedicated to reaching out to all of its 
citizens.
    So we have the simplicity of Westerns. We have the reality 
of foreign policy in Eastern Europe. It is overly simplistic to 
say that one side is entirely right and one side is entirely 
wrong just as it is even more simplistic to say that everything 
would go our way if only we had a President with a different 
personality.
    We had a President with a radically different personality 
just a decade ago when Georgia lost not one but two of its 
autonomous regions to Russia, Georgia being smaller, the 
regions being smaller, the issues being smaller. But you can 
say what you like about our last two Presidents. The one thing 
everybody agrees on is they had different personalities.
    As to arms control agreements, we have got to trust but 
verify. Ronald Reagan entered into agreements with a Soviet 
Union that, clearly, was less trustworthy than Putin is today. 
Those who enter into these agreements and rely on trust are 
fooling themselves.
    The allegations are twofold. One, that the--that a Russian 
missile that they call long range was tested at an intermediate 
range. It seems clear that it is a long range missile.
    The other is that a mid-range missile that the Russians say 
was for sea-based purposes was tested on ground, which is 
allowed, but tested on ground with what appears to be a 
operational useable ground-based launcher perhaps one, and I 
would like to hear from our witnesses, that was mobile. And so 
it appears as if they were developing a ground-based capacity 
for this intermediate missile.
    Finally, I will point out that four countries have given up 
their nuclear weapons or their nuclear programs--South Africa, 
where it worked out well--Saddam, Gaddafi and the Ukraine.
    Two of them lost their lives. One of them lost the Crimea. 
It may be more difficult in the future for us to convince 
dictators to give up nuclear weapons. It doesn't always work 
out well. I yield back.
    Mr. Poe. Without objection, all of the witnesses' prepared 
statements will be made part of the record and I ask that each 
witness keep your presentation to no more than 5 minutes.
    We are in the middle of votes. We will see how far we can 
go before we recess for votes and we will resume immediately 
after the votes. I will introduce both of the witnesses at this 
time.
    Ms. Anita Friedt is the principal deputy assistant 
secretary for nuclear and strategic policy for the Bureau of 
Arms Control, Verification and Compliance at the U.S. 
Department of State.
    Ms. Friedt has earned numerous awards including seven 
superior honor awards for her work on U.S.-Russian European----
    Mr. Sherman. Mr. Chairman, are other members allowed to 
give short opening statements?
    Mr. Poe. All members may have 5 days to submit statements 
due to the fact that we have votes and we also have two 
subcommittees. So they can make their comments during their 
questioning if they wish.
    Mr. Brent Hartley is the deputy assistant secretary for the 
Bureau of European and Eurasian Affairs at the U.S. State 
Department. Mr. Hartley has extensive experience in European 
security issues and has served in various roles related to arms 
control, counter terrorism in NATO and more.
    Ms. Friedt, we will start with you. You have 5 minutes.

 STATEMENT OF MS. ANITA E. FRIEDT, PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY FOR NUCLEAR AND STRATEGIC POLICY, BUREAU OF ARMS 
CONTROL, VERIFICATION, AND COMPLIANCE, U.S. DEPARTMENT OF STATE

    Ms. Friedt. Thank you, Mr. Chairman.
    Chairman Poe, Chairman Rohrabacher, Ranking Members Sherman 
and Keating and members of this committee, I am grateful for 
the opportunity to speak to you today about the 
administration's arms control policy toward Russia.
    Today, I want to speak to you about three things. One, why 
arms control agreements with Russia continue to be an important 
tool to enhance the security of the United States, our allies 
and partners; two, how we have used arms control tools since 
the crisis in Ukraine began to increase transparency and 
stability in support of our broader regional efforts; and 
three, the seriousness with which the administration takes 
compliance and arms control treaties.
    First, as it has been recognized for over four decades, 
arms control is a tool that can be used to enhance the security 
of the United States, our allies and our partners.
    The Obama administration has continued the longstanding 
bipartisan approach to arms control with Russia that had its 
origins in the days of the Cold War. The administrations of 
Presidents Ronald Reagan, George W.--and George H.W. Bush were 
the architects of many of our most successful and enduring arms 
control efforts.
    Let me affirm that the United States is committed to 
maintaining strategic stability between the United States and 
Russia and to encouraging mutual steps to foster a more stable, 
resilient, predictable and transparent security relationship.
    That said, Russia's illegal actions in Ukraine have 
undermined trust. While diplomacy between the United States and 
Russia continues, no one can ignore that Russia's actions in 
Ukraine have violated the very principles upon which 
cooperation is built.
    Further, as we consider arms control priorities this year 
or in any year, we will continue to consult closely with our 
allies and partners every step of the way. Our security and 
defense as well as that of our allies and partners is non-
negotiable.
    We will only pursue arms control agreements that advance 
our national interest. During the Cold War, Washington and 
Moscow found it in our mutual interest to work together to tap 
and then to begin reducing the number of nuclear weapons in 
service in reversing the nuclear arms race and improving mutual 
security instability.
    We judged that the New START treaty was in the United 
States' national security interest for the same reasons and 
that is why we continue to implement the New START treaty with 
Russia today.
    We are now in the fourth year of implementation, and 
despite the crisis in Ukraine we in Russia continue to 
implement the treaty in a business-like manner. Since entering 
into force in 2011 the United States has inspected with boots 
on the ground Russian nuclear weapons facilities 58 times.
    These inspections are as a part of New START's treaty 
verification regime which is a vital tool in ensuring 
transparency and predictability between the world's largest 
nuclear powers.
    In the realm of conventional arms control, the United 
States and our allies have been using arms control mechanisms 
in an effort to promote stability in Europe, provide 
transparency in Russia's provocative actions and assure our 
allies and partners.
    I want to underscore that our NATO allies and other 
partners in Europe strongly support arms control in Europe as 
well as our active participation and leadership in those 
efforts.
    Since the Ukraine crisis began, the United States and our 
treaty partners have used the Open Skies treaty to fly 11 
missions over Ukraine and western Russia, yielding imagery of 
thousands of square miles of territory. These flights have 
resulted in valuable data and insights not only for the United 
States but our partners and allies as well.
    We also have confidence-building measures in the Vienna 
Document to conduct inspections of use and confidence-building 
measures in Ukraine.
    Let me now turn to the issue of compliance. First and 
foremost, the administration takes compliance with all arms 
control agreements extremely seriously. For this reason, this 
administration worked hard to produce a compliance report in 
2010, the first compliance report delivered to the Congress 
since 2005, and we have produced one every year since.
    We endeavor every year to produce a compliance report by 
April 15th. This is admittedly challenging, given the volume of 
information, the multiple agencies that must comment on it and 
the seriousness with which the administration conducts its 
annual compliance review.
    Despite this, we plan to have the report fully coordinated 
and available later in the spring. As we have previously 
stated, we have concerns about Russian compliance with the INF 
treaty.
    We have raised them--raised these concerns with Russia and 
are pressing for clear answers in an effort to resolve these 
concerns because of the importance of the INF treaty to Euro-
Atlantic security.
    We have briefed our NATO allies on our concerns and will 
continue to coordinate with them on this and other matters that 
affect our common security.
    We have kept Congress informed on this matter through 
briefings with relevant congressional committees and will 
continue to do so. We will continue to work with Russia to 
resolve our concerns and to encourage mutual steps to help 
foster a more stable, resilient, transparent security 
relationship. We are not going to drop the issue until our 
concerns have been addressed.
    Let me conclude by reiterating our strong belief that arms 
control treaties and agreements continue to be an important 
tool that can enhance the security of the United States and our 
friends and allies.
    The successful implementation of the New START treaty and 
the important contributions that Open Skies treaty and the 
Vienna Document have played recently in Ukraine demonstrate the 
continued relevance of arms control for our national security.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Ms. Friedt follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Poe. Thank you, Ms. Friedt.
    Mr. Hartley, we just have a few minutes left in the voting 
process so we will do your testimony as soon as we come back.
    We have two votes. After the second vote is concluded we 
will start immediately after that and we will hear what you 
have to say. Committee is in recess.
    [Recess.]

  STATEMENT OF MR. BRENT HARTLEY, DEPUTY ASSISTANT SECRETARY, 
  BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Hartley. Thank you very much, Mr. Chairman, members of 
the committees. I appreciate very much your inviting me to 
testify here today on our efforts to reassure allies and 
partners and to bolster security in Ukraine and the region, and 
I would like to thank the members of both subcommittees or both 
committees for your engagement on European security in light of 
the Ukraine crisis.
    It is important to remember how we got to this point. 
Russia's illegal annexation and occupation of Crimea and its 
continued campaign to undermine and intimidate the Government 
of Ukraine have up-ended the post-Cold War security 
architecture that Russia had in fact helped to create.
    Russia is maintaining a 40,000--a contingent of 40,000 
troops on Ukraine's eastern border and conducting military 
activities that raise deep concerns. There is strong evidence 
demonstrating that the actions of recent weeks--the roadblocks, 
building seizures, hostage takings and other violent acts in 
Eastern Ukraine, primarily in the Donetsk Oblast--have not been 
a spontaneous set of events but rather a well orchestrated 
campaign led by Russian special services.
    We strongly condemn the abduction last Friday of the 
German-led Vienna Document inspection team and their Ukrainian 
escorts in Slovyansk by pro-Russian separatists.
    We are deeply disappointed that senior officials in Moscow 
have not condemned the abduction of the team nor have they 
demanded the team's immediate release.
    Russia's aggressive actions in Ukraine are in violation of 
international law and do not uphold the letter or the spirit of 
the April 17th Geneva statement.
    Yesterday, the United States acted, imposing new sanctions 
on seven Russian Government officials including two members of 
President Putin's inner circle and 17 companies linked to 
Putin's inner circle.
    These steps demonstrate that the United States is committed 
to increase the costs on Russia as it persists in its efforts 
to destabilize Ukraine and that we will hold Russia accountable 
for its provocative actions.
    Russia's actions have also forced the United States and 
NATO allies to fundamentally reexamine our strategic engagement 
in Europe. My testimony today will focus on three areas of this 
effort.
    First, I will talk about efforts to reassure NATO's front 
line allies and to bolster our other partners in the region. 
Second, I will discuss the Organization for Security and 
Cooperation in Europe's important role in monitoring the 
security situation and facilitating dialogue in Ukraine. Third, 
I will address U.S. bilateral security assistance to Ukraine.
    First, we are pursuing measures through NATO and 
bilaterally to reassure our allies and partners in the region 
and in particular to demonstrate our solemn commitment to our 
collective defense responsibilities to our NATO allies. We have 
deployed six additional F-15s to the Baltic air policing 
mission.
    We have deployed 12 F-16s and other aircraft and personnel 
for exercises--joint U.S.-Polish exercises coordinated by the 
U.S. aviation training detachment in Lask, Poland.
    NATO has deployed AWACS to provide aerial surveillance over 
Poland and Romania as well as a mine counter measure naval 
group into the Baltic Sea. The United States deployed--has 
deployed ships into the Black Sea for exercises with Romania 
and Bulgaria.
    On April 16th, NATO allies agreed on additional measures to 
provide reassurance and demonstrate NATO's resolve and 
solidarity. U.S. Army in Europe has deployed over the last week 
company-sized contingents of paratroopers to Poland, Latvia, 
Lithuania and Estonia for exercises with those host 
governments' troops.
    These will be the first in a series of expanded land-force 
training exercises in the region that will take place at least 
through the end of the year. As we prepare for the NATO summit 
in Wales, it will be an opportunity to reassess the alliance's 
long-term priorities in the wake of Russia's aggressive actions 
in Ukraine--that, along with NATO-Ukraine relations questions 
related to the open-door NATO enlargement, Afghanistan 
capabilities and enhancing NATO partnerships.
    Beyond NATO's borders, we are engaged with other front line 
states like Georgia and Moldova and I would be happy to get 
into more detail on that in my--in the question and answer 
period.
    Second, we see a vital role for the OSCE in this crisis. 
Along with our allies in Europe we are committed to maintaining 
a large presence of international monitors as part of the OSCE 
special monitoring mission.
    This mission is positioned to objectively assess the 
security situation and investigate claims of human rights 
abuses as well as to assist in de-escalating tensions in 
Eastern Ukraine.
    But for this mission to be properly implemented in 
accordance with the Geneva statement, Russia must take active 
and concrete steps immediately to de-escalate the crisis 
including public and private messages to pro-Russian elements 
engaged in illegal activities in Ukraine as well as active 
support for the monitoring missions role.
    OSCE is also involved in election observation for the May 
25th election. The Office for Democratic Institutions and Human 
Rights, or ODIHR, is laying the groundwork for the largest 
observation mission in its history--in its 40-year history, 
planning to deploy approximately 1,000 observers in the run-up 
to the election.
    Third, we are working with the Ukrainian Government to 
provide security assistance. As Vice President Biden announced 
last week, we are providing $8 million in assistance to allow 
the Ukrainian armed forces and border guard service to fulfill 
core security missions.
    This is in addition to the $3 million of meals ready to 
eat, $3.5 million of health and welfare assistance to the armed 
forces and $3 million in other security assistance to Ukraine's 
state border guard service.
    Looking forward, the United States will continue to 
reaffirm the security and stability of the region across 
multiple fronts using multiple tools at our disposal.
    In this effort, we appreciate Congress' bipartisan 
attention and support for Ukraine and for stability across the 
region and will continue to work in close coordination with you 
on all three of these areas.
    Chair, thank you very much and I look forward to your 
questions.
    [The prepared statement of Mr. Hartley follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Poe. Thanks for yielding back time. The Chair will now 
recognize the chairman of the Subcommittee on Europe, Eurasia, 
and Emerging Threats--Mr. Rohrabacher--for 5 minutes of 
questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. The 
focus of this hearing, we originally thought would be our 
nuclear weapons and the relationship between the United States 
and Russia in terms of cooperating on reducing and restricting 
the number of nuclear weapons that threaten human kind.
    We have gone beyond that and we, of course--however, I 
believe the purpose of that is to put in perspective the 
decisions we must make in terms of weapons control after the 
events that have happened in Ukraine.
    Let me just note that from my perspective, there has been 
too gleeful a response by so many of my former colleagues, and 
I am not talking about members of the House. I am talking about 
people who have worked with me over the years in various 
administrations and various anti-Communist causes.
    There seems to be a gleeful response to what has happened 
in Ukraine because it then gives them yet a purpose in going 
back and beating up the old enemy. And, frankly, the Soviet 
Union was our enemy because it was directed by people with an 
ideology that it was trying to supplant in the rest of the 
world and doing so in a big way as well as building up their 
own military. Russia is a powerful force in the world, which we 
need to deal with as a major country--a major nation.
    Major countries have their interests. I do not see what is 
going on in Ukraine as a--as a outcome of the Communist 
ideology but instead you have a very important international 
power there, Russia, that is governed by someone who is looking 
out for its national interests and who that leadership of that 
country, obviously, believes that what was going on in Ukraine 
was contrary to their national interests and that they were not 
being treated fairly in a way in which a pro-Russian leader was 
removed from office by street violence rather than by 
elections, which was going to result in their losing the--what 
they had was access to the Crimea and a port for their fleet.
    That said, I would like to go back to the original purpose 
that we came here today was to talk about arms control and how 
that will be impacted by this new shift in our relations with 
Russia, and I say that no matter what I just said the bottom 
line is it is in recognition that we are now not in as a 
positive relationship or a neutral relationship that we were in 
2 years ago with Russia.
    We are in fact in a--things have--our relationship with 
Russia has deteriorated. Whose fault that is and does the 
Russian Government--does Putin and--we share--have all the 
blame or do we share some of it or was there a power grab by 
the EU? That is something that would take long to discuss. But 
the fact is we know that relationship has deteriorated.
    What I would like to ask the panel is does this mean that 
what we negotiated with--and I am very proud of what Ronald 
Reagan accomplished in eliminating a whole classification of 
nuclear weapons and brought down the number of nuclear weapons 
that threaten the world--does that mean that we can no longer 
work with Russia in this area?
    Should we postpone our efforts or pull back from 
cooperation with the current Russian Government on those 
issues? Should we then also pull back from economic 
cooperation?
    Should we declare the space program that we are in partners 
with Russia now to be not something that we believe we can 
count on and thus we should go the opposite direction? What 
about that?
    What are the implications for arms control? What are the 
implications for cooperating in other areas with Russia on this 
whole Ukrainian situation?
    Ms. Friedt. Thank you, Mr. Chairman. I will be pleased to 
answer that question.
    First of all, I would say that this administration has made 
it very clear that it is important to continue to cooperate 
with Russia where we can, where our national security interests 
coincide. But then when we disagree we disagree and we make our 
disagreement very clear.
    So there is no question that it is in our national security 
interest to continue to work with Russia and international 
partners in multilateral efforts that are key to global 
security.
    Such efforts as elimination of Syria chemical weapons, for 
example, our work together on Iran and, I would add, also our 
work together in the arms control field, and that means a 
continued implementation of arms control----
    Mr. Rohrabacher. So we are not advocating--so the 
administration and what you are suggesting today--good policy 
would be not to punish Russia in those areas for what they are 
doing in Ukraine?
    Ms. Friedt. I would not say punish. We have a very clear 
position on the events in Ukraine and----
    Mr. Rohrabacher. So we should not let cooperation be a tool 
then. Mr. Hartley, could you answer that and then I will--I 
have already taken too much time. I am sorry.
    Mr. Hartley. Yes, sir. Thank you for that question. Well, 
as Anita said we--there are areas where both we and the 
Russians perceive our national interest to coincide and Anita 
outlined a number of them. One area where we now have a very 
profound difference is over what the post-Cold War European 
security environment should be--what the ground rules are.
    Coming out of the Cold War, we had--we thought some very 
clear rules based on the Helsinki Final Act of 1975 and other 
agreements that European borders would not be changed by force.
    The Russians have undertaken to do that with regard to 
Crimea. We believe that they are actively involved using their 
special forces and other agents to destabilize Eastern Ukraine 
and it is for that reason because of this behavior contrary----
    Mr. Rohrabacher. Thank you. Thank you very much. And Mr. 
Chairman, again, as we discuss this China is still in the world 
and in the picture and I hope that as we look and we work these 
problems out that we keep in mind that China has to be part of 
the equation or the world will be less secure.
    Thank you very much, Mr. Chairman.
    Mr. Poe. I thank the gentleman. I will--the Chair will 
recognize the ranking member of the subcommittee from 
California, Mr. Sherman, for 5 minutes.
    Mr. Sherman. This has become to some extent a Ukraine 
hearing and we are honored by the presence of the deputy 
assistant secretary from the relevant bureau.
    Mr. Hartley, has the Ukrainian Government been successful 
in disarming anti-Russia militias?
    Mr. Hartley. Thank you, sir, for that question. My 
expertise falls more on the NATO, the OSCE and the bilateral 
security assistance side. It is my impression that they have 
made some progress there but I would be happy to take that 
question for a more authoritative response.
    Mr. Sherman. Okay. While you take that question, the other 
question is what are we doing to urge the government in Kiev to 
honor and even make less subject to alteration statutes adopted 
in the past to assure the Russian language would be an official 
language in the south and east of Ukraine?
    What are we doing to say yes, there may be forces--
political forces in Kiev that say let us impose the Ukrainian 
language on everyone and there may be forces on the other side?
    I for one understand America is spending its treasure and 
taking risks for the territorial integrity of the Ukraine. I am 
an agnostic as to what language should be spoken in the East 
and I would hate to think that we find ourselves exposed to 
risk and cost because the noncompromising elements prevail in 
Kiev on these language issues.
    Ms. Friedt, what--does Russia put forward any arguments 
that we are in violation of any of the arms control agreements 
that we have entered into with Russia or with its predecessor 
government?
    Ms. Friedt. Thank you for that question, sir. Yes, as a 
matter of fact Russia, when we issue our annual compliance 
report every year, at least this administration, the Russians 
regularly come back with some--their own----
    Mr. Sherman. So they have an annual compliance report which 
may even be issued on time. Sorry about that. Sorry. Go ahead. 
And what do you think is their strongest complaint?
    Ms. Friedt. Strongest complaint, the one I would say--I 
can't give you all of their complaints right now because I 
haven't looked at them recently but certainly our missile 
defense is what they focus on.
    Mr. Sherman. And which treaty do they believe the missile 
defense efforts are in violation of?
    Ms. Friedt. Well, it would be more than likely the INF 
treaty is one.
    Mr. Sherman. Okay. Now, as--I am trying to understand what 
is the legal obligation of Russia with regard to intermediate 
missiles that they claim will be used only in naval warfare.
    As I understand it, they are allowed to test these missiles 
from a ground-based launcher but not if that ground-based 
launcher would be the effective launcher to use in case 
hostilities broke out. What are they allowed to do on land in 
order to test weapons that they say are exclusively for naval 
use?
    Ms. Friedt. Sir, quite frankly, thank you for your 
question. I am not prepared right now to go into technical 
details. The focus here is----
    Mr. Sherman. I am asking you what the treaty provides. I am 
asking for you to just inform us what the treaty provides. What 
is the United States allowed to do? What is the--and I am not 
asking for a secret here.
    Ms. Friedt. No, no. Not at all a secret. But let me just 
briefly state that what, as I mentioned before, that we have 
very serious concerns and as you have stated that Russia is 
developing a ground-launched cruise missile that is 
inconsistent with the INF treaty and we have made those 
concerns very clear to the Russians.
    Mr. Sherman. I am hoping you would make them clear to us. 
Is the mere testing of--and Mr. Hartley, I don't know if you 
have a comment on this--the mere testing of this missile a 
violation if they can claim that it is--that they only plan to 
deploy it on ships?
    Ms. Friedt. Sir, that would go into the specific range and 
such that it is tested. So it----
    Mr. Sherman. It is being tested for--you know, it is an 
intermediate range missile. The question is is it a naval 
intermediate range missile or are they creating a ground-based 
intermediate missile?
    Ms. Friedt. Sir, I can't get into details here, I am 
afraid, on that topic because of the--I would be happy to talk 
about it in closed----
    Mr. Sherman. Okay. The details I want are what are the 
provisions of the treaty but my time has more than expired. I 
thank you for your time.
    Mr. Poe. I thank the gentleman. Ms. Friedt, it has taken 5 
years for the State Department to reach a verdict on this 
treaty, in my opinion.
    So my question is are the Russians, in our point of view, 
in violation of the treaty? And I see only one of three 
answers--yes, no, you don't know. So which one of those is the 
answer?
    Ms. Friedt. Sir, we are in the process of finalizing the 
annual compliance report and we will have a finding so shortly.
    Mr. Poe. So you can't tell me whether you--it is yes or no 
or you don't know?
    Ms. Friedt. I can't at this point because, as I mentioned, 
it is----
    Mr. Poe. When are you going to have this report ready? It 
is--like the ranking member said, it is overdue.
    Ms. Friedt. Sir----
    Mr. Poe. It is 5 years taken to get a report here. Either 
they are in compliance or they are not in compliance. We've got 
to make foreign policy decisions and we don't know if the 
Russians are cheating or not? So how long is it going--when are 
we going to get a verdict on the report?
    Ms. Friedt. Sir, we report on this issue every year on the 
INF treaty and at this point the annual compliance report is in 
the process of being finalized.
    Mr. Poe. So when will it be finalized?
    Ms. Friedt. Later this spring.
    Mr. Poe. You don't know. Okay. Each of you have said that 
the actions by Putin are illegal. You have seen that there is 
some disagreement here as to whether Russia can do what they 
are doing internationally or not.
    Why is the action of Russia going into Crimea and then now 
Eastern Europe--Ukraine--illegal in the United States' point of 
view? You both said it was illegal. So why is it illegal?
    Mr. Hartley. Yes, sir. Thank you for that question. The--
undertaking the actions they did the Russians have violated 
their commitments under the U.N. charter. That is from a legal 
standpoint.
    From a political standpoint, they have violated--well, they 
have broken commitments made under the 1994 Budapest memorandum 
and as well as the commitments under the Helsinki Final Act, 
among others.
    Mr. Poe. Ms. Friedt, do you have any other comments other 
than what Mr. Hartley has already said on why the action is 
illegal?
    Ms. Friedt. No, sir. I think Mr. Hartley has answered the 
question.
    Mr. Poe. When I was in Ukraine and in recent weeks have 
talked to other heads of state in the area they are not the 
only country that is concerned about their territorial 
integrity--Moldova, other former Soviet republics not yet in 
NATO and some that are in NATO. Are there concerns warranted? 
Mr. Hartley.
    Mr. Hartley. Yes, sir, if I may. The--of course, they----
    Mr. Poe. And I am talking about concerns of Russia coming 
in and taking over some of their territory. That is my 
question.
    Mr. Hartley. Yes, sir. The actions that the Russians have 
undertaken with regard to Crimea and what they are doing in 
Eastern Ukraine gives deep cause for concern on the part of 
those nations.
    Any country that has a Russian minority or a Russian-
speaking minority, at least according to Mr. Putin in his 
March--April 18th speech, according to Mr. Putin's public 
statements is--would seem at risk of being--be at risk of 
Russian intervention.
    Mr. Poe. The Ukrainian Government, on the issue of interest 
of Russians in the east, there is no definition as to what a 
Russian is.
    Is it a Russian that was born in Russia? Is it a Russian 
that has moved to Eastern Ukraine? Is it a Russian who wants to 
be Russian? There is no definition as to what a Russian is.
    Do we have a definition of what a Russian is in the eastern 
part of the Ukraine?
    Mr. Hartley. I don't know that we do, sir.
    Mr. Poe. It means different things to different people?
    Mr. Hartley. That is true, and the way Mr. Putin seems to 
define it is an ethnic Russian or a Russian speaker.
    Mr. Poe. The elections in Ukraine are coming up May 26th, I 
believe. I think it is important for stability in Ukraine that 
they have these elections, that they are fair, that people 
vote.
    Do you see--I am asking you just to kind of look 26 days in 
the future--do you see that the Russians may cause a 
disturbance, a crisis, to try to postpone these elections? It 
seems like to me they cause a crisis, then they want to solve 
the crisis by moving in their troops. So are we expecting a 
possible crisis to try to get these elections postponed?
    Mr. Hartley. Sir, thank you for that. Well, I would be 
hesitant to speculate too far into the future. The conditions 
are such that that is a legitimate concern.
    In the negotiation of the Geneva statement, the U.S, the EU 
and the Ukrainians all urged the inclusion of a sentence that 
referred to the May 25th elections and the need that they be 
carried out in an orderly and transparent way.
    The Russians refuse to include that in the text of the 
statement. The disruptions are already taking place in Eastern 
Ukraine that are bound to complicate the election efforts and 
we believe that those--that the instability there is being 
fomented by the Russians.
    Mr. Poe. Thank you, Mr. Hartley, Ms. Friedt. We will--chair 
will yield to the gentleman from New York, Mr. Meeks, for 5 
minutes.
    Mr. Meeks. Thank you, Mr. Chairman. Let me--you know, there 
was a beginning where we thought that we would be entering a 
new world where we would be able to have as we did with the New 
START treaty, for example, we are not abolishing nuclear 
weapons altogether. There was a--we were moving in the right 
direction.
    Senate ratified it--the treaty, and the Russian Federation 
then right after ratified the treaty, and there was a lot of 
things going on because it seems to me when we are dealing with 
Crimea and dealing with the east Ukraine we have got to balance 
a number of issues also--our NATO allies.
    I believe that sanctions work but only when they are 
multilateral sanctions. If we do sanctions individually they 
are not as strong as they would be multilaterally.
    Yet a number of our NATO allies have concerns and we have 
got to make sure that they are part of whatever we do. We can't 
separate ourselves, in my viewpoint, from them and that is why 
our NATO allies are tremendously important.
    Some of them are more dependent upon Russia than others and 
some arms experts--control experts continue to report that 
Russia could potentially withdraw from treaties such as the INF 
and that they may further--any further expansion of arms 
control efforts will likely make no headway for the foreseeable 
future.
    So and some of my colleagues, and I hear some of the 
pundits, et cetera, saying give weapons and some saying more 
sanctions. Very few people are talking about diplomatic 
solutions.
    So my first question is do--either one of you do you still 
see--you know, I always try to believe that there is hope, that 
we all--we should talk and have conversations with nations that 
we don't disagree with.
    Is diplomacy an option here? Do you see diplomacy having a 
chance here or have we--you know, or it has no chance? What 
role do you think diplomacy has in this?
    Mr. Hartley. Thank you, sir. We believe that diplomacy is a 
critical aspect of this. That is why Secretary Kerry has had, I 
forget, six, eight, 10 conversations with Mr. Lavrov, the 
Russian foreign minister, over the last couple of weeks.
    That is why he went to Geneva to negotiate the terms of the 
Geneva statement that laid out a pathway for de-escalation and 
so we very much believe that the--that that is the--that 
diplomacy is the way to resolve this to find a political 
solution.
    The sanctions that we are imposing have been imposed only 
after those efforts have so far proven fruitless. But our 
sanctions are scalable. They are flexible. If the Russians make 
the decision that they want to de-escalate the situation and 
return to behavior consistent with international norms then we 
can reverse the sanctions.
    But we--even as we go forward, taking a harder line on 
those, we want to keep the door open for a diplomatic solution.
    Mr. Meeks. And that being the case try to prevent a 
scenario that we currently have and I do see some of the other 
regions, whether it is in the Caucuses, the Baltic or the 
Eastern Europe or Central Asia, you know, we have got to focus 
on some of those countries now.
    I have got a lot of friends in those countries that think 
Mr. Chairman Poe may have said something. What do we say to 
them now? What should we do.
    I mean, when you look at Ukraine its economy was in the 
tank and some say Crimea is going to be a big burden on Russia, 
as it seems right now. But we have got to firm up the rest of 
the Ukraine economically.
    What do you see that we can do? Mr. Hartley, you talked 
about that there is huge concerns right now about Russia, you 
know, at least some of these countries about Russia coming in. 
What can we do now before there is any possibility of Russia 
invading?
    What can we do to help those countries now so that we can 
make them--assure them that we are there, that NATO is there? 
What do think we can do right now, prospective?
    Mr. Hartley. Thank you, sir. Well, with regard to NATO 
allies, particular those on--we have now come to call front 
line states, the three Baltic countries--Poland, Romania, 
Bulgaria--we have already deployed U.S. forces--land, sea and 
air--and NATO allies are deploying at this point, principally 
sea and air assets in a measured way to underscore that the 
Article 5 commitment to collective defense is credible and has 
teeth. So we are in constant consultation with our NATO allies 
at NATO headquarters.
    Mr. Meeks. Let me just ask--and we are out of time--I just 
want to ask this one last question. Do you think Russia is 
backing down from its arms agreements with the United States 
and preparing to have a continued military escalation?
    You know, that is what some are saying--that in other 
words, people are saying that Russia is building up and they 
are strong and kind of daring the United States to have a 
military escalation on NATO to come up and make them militarily 
see that that is part and parcel of what is going on here?
    Ms. Friedt. Sir, thank you for that question. That is 
precisely why the New START treaty is so important. The fact 
that we have--and the fact that it has been successfully 
implemented since it was signed and inspections began in 2011.
    Russians are implementing the New START treaty and it does 
set the limits on their ability to build up nuclear forces.
    Mr. Meeks. And you don't see them violating that right now?
    Ms. Friedt. No, sir. No, sir.
    Mr. Meeks. Okay. So there is still cooperation in that 
regards.
    Ms. Friedt. Yes, sir.
    Mr. Meeks. And there are a number of other things that they 
are still cooperating with us on?
    Ms. Friedt. Yes, sir.
    Mr. Meeks. Thank you, Mr. Chairman. I yield back.
    Mr. Poe. The gentleman yields back.
    Mr. Hartley. May I add to that, sir, or do you want to move 
on?
    Mr. Poe. If you can make it brief.
    Mr. Hartley. Okay. On the conventional side, the Russians 
have been modernizing but--and it has been a source of some 
concern. But we feel as though the assets available to the NATO 
alliance are sufficient to deter any incursions on NATO 
territory.
    Mr. Poe. Thank you, Mr. Hartley. The Chair will recognize 
the gentleman from Pennsylvania, Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman. Ladies and gentlemen, 
appreciate your time. Ms. Friedt, the State Department is aware 
that Russia may have been in violation of the 1987 Intermediate 
Range Nuclear Forces Treaty while negotiating the New START 
treaty.
    The first question is when, as far as you understand it, 
did the administration first learn of the possible violation of 
the INF treaty by the Russians? Was it in 2008?
    Ms. Friedt. Sir, the New START treaty--ratification of the 
New START treaty did not--I mean, at that time the--Russia was 
implementing the INF treaty successfully. At this point, I 
would go into--prefer to go into closed sessions to deal with 
the circumstances, the specific dates on the specific questions 
you asked.
    Mr. Perry. Okay. Then let me ask you this. When the 
President was overheard talking to Medvedev at the time he said 
that after the election he could be more flexible, and this is 
in the context of Members of Congress being concerned about our 
national security posture and our ability to secure our nation 
in light of adversaries and enemies, if you want to call some 
folks that. What did he mean by that? What do you think he 
meant by that?
    Ms. Friedt. Sir, what I can say here is that the United 
States and this administration will only pursue arms control 
agreements that are in the United States national security 
interest and that is something that this administration and the 
President believes.
    Mr. Perry. But if we know or if we suspect with some 
credibility that our partner in negotiation is cheating at the 
time we are negotiating a reduction in our capability, how is 
that--and we don't take that into account and we continue to 
march forward with our reduction, how--can you explain to me 
how that is in our best interest?
    Ms. Friedt. Sir, as I mentioned in my statement, this 
administration takes compliance with arms control treaties very 
seriously. During the negotiation of the New START treaty, we 
took compliance with arms control treaties into consideration.
    Mr. Perry. But we knew or we suspected? We suspected while 
we were negotiating the treaty that they were cheating and we 
continued forward, and it is fine to continue forward with the 
negotiation. We, as far as you know, and as far as Russia is 
concerned, based on your testimony have upheld our end of the 
bargain.
    We still don't know--according to your testimony, we won't 
know until later this spring, and by the way, spring is almost 
over--to the extent of their cheating and I recognize and 
acknowledge the sensitivity of the date.
    So I will be happy to talk to you in closed session about 
that. But my concern is that we are unilaterally disarming 
America while we know or we suspect with some certainty that 
Russia is cheating on their end of the deal and I still don't 
understand how that is in our best interest.
    Ms. Friedt. Thank you for that question, sir. The United 
States--arms control is in the United States' national security 
interest.
    Mr. Perry. It is in our interest when we are controlling 
theirs or they are controlling theirs within the paradigm as 
well as ours. But it is not in our interest when we are 
controlling ours and they are not controlling theirs to our 
satisfaction in accordance with the previous agreement. Would 
you agree?
    Ms. Friedt. Sir, we take compliance--this administration 
takes compliance with arms control very seriously. I am happy 
to discuss the specifics in closed session.
    Let me say with respect to the START treaty that was a very 
carefully negotiated agreement based on the nuclear posture 
review. That was a document that received interagency--a very 
close study by then Secretary Gates and by then chairman of 
the----
    Mr. Perry. But does it--but did they have the knowledge at 
that time? Because we didn't--and again, maybe you want to wait 
to a closed session but it is my understanding that we didn't 
report our suspicion or our knowledge of their breach of the 
previous treaty while the negotiation was happening to our NATO 
allies.
    Did our negotiators--did Secretary Gates--did he know at 
that time while he was in agreement with this accord that we 
had a very strong suspicion that they were cheating on the 
previous agreement?
    Ms. Friedt. Sir, I would like to take you up on your offer 
to do this in closed session.
    Mr. Perry. All right. Then moving on, based on--based on 
recent actions in Crimea, can--how do you--do you think the 
American people should trust the Russians to adhere to a 
bilateral and multilateral arms control agreement, and if so, 
why?
    Ms. Friedt. Sir, this administration believes in trust but 
verify. So verification and compliance with arms control 
treaties is very important.
    Mr. Perry. Let me ask you one final question, with due 
indulgence, Mr. Chairman.
    So if we find out and if we prove and in the spring time if 
it is determined and you report that they had indeed cheated, 
for lack of a better phrase, on the previous treaty, the 
previous agreement, what will be the ramifications?
    Ms. Friedt. Sir, I am not prepared to discuss this at this 
point. When the report is finalized we will discuss it.
    Mr. Perry. Thank you, Mr. Chairman. I yield.
    Mr. Poe. Gentleman yields back his time. The Chair will 
recognize the gentleman from Florida, Mr. Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman, and I appreciate it--
your testimony today.
    Why do you think Russia has become so emboldened here, 
going back to August 2010, as far as invading other countries? 
I thought it was a simple question. I am sorry.
    Mr. Hartley. Thank you, sir. If only there were simple 
questions in this life. The--it is, of course, difficult to 
know precisely why the Russians and Mr. Putin have taken the 
actions they have.
    There are factors related to history, factors related to 
concern about the influence that a successful democracy and 
market economy on its border by a land--a country that used to 
be part of Russia might have on the--or part of the Russian 
empire might have on the rest of the population in Russia.
    Mr. Yoho. Okay. Let me--let me go in a different direction 
here. As you said, there are the simple questions but the 
answers aren't often simple. Do you see the 2010 START treaty 
with us reducing our weapons to 1,550 and with President Obama 
and the administration willingness to reduce further unilateral 
cuts to 1,000 do you think that has emboldened the Russians--
Mr. Putin and the Russians?
    Ms. Friedt. Thank you for that question, sir. No, I do not.
    Mr. Yoho. Okay. Do you see Russia viewing us as weak, 
undecisive, not willing? Our credibility has been damaged. If 
you go back over the course of the last 2 or 3 years--you know, 
red lines, no red lines, regimes must change, we never said 
regimes must change, not fulfilling the missile defense system 
in Poland and, you know, putting a stop to that? Do you think 
they see us as just kind being weak and not with strong 
resolve?
    Ms. Friedt. Sir, I do not see U.S. foreign policy as weak.
    Mr. Yoho. Okay. How about you, Mr. Hartley?
    Mr. Hartley. No, sir. I agree with Anita.
    Mr. Yoho. All right. So with what is going on in Venezuela 
in our own back yard, with what China is doing drawing an 
arbitrary no-fly zone with Syria and Iran and Iran is closer to 
a nuclear weapon--in fact, the last--just here a couple of 
months ago we were told that Iran would have enough material to 
develop five to six nuclear bombs within 4 to 5 months, I see--
what I am seeing from where I am sitting and what I read is the 
lone superpower that Bill Clinton talked about that America 
could no longer afford to be becoming weaker, everybody else is 
becoming emboldened and I see people flexing their muscles 
because of our weakness and that lack of resolve that we have.
    Where do you think this will lead? Where do you think 
Russia will end up? Are they going to go into Transnistria? Do 
you see them going into there? Because that is a large Russian-
speaking population. Do either one of you see that?
    Mr. Hartley. Sir, we see that there is a risk and the 
Russians have influence in Transnistria. But it is our policy 
to exact a cost from the Russians for their behavior that is in 
violation of international norms.
    Mr. Yoho. All right. And do you feel the sanctions that we 
are talking about that we have done do you think they will have 
any compact on Russia's aggression?
    Mr. Hartley. Sir, the purpose of the sanctions is to try to 
influence Russian behavior, to bring it back within 
international norms.
    Mr. Yoho. How is it working so far, Ms. Friedt?
    Ms. Friedt. Actually, that's Mr.--Brent, go ahead.
    Mr. Hartley. If I may, sir.
    Mr. Yoho. Yes.
    Mr. Hartley. This could be a long process, sir.
    Mr. Yoho. All right. But, again, do we have compliance with 
other nations? Are they putting strong sanctions in place too 
or is it just us doing this unilaterally?
    Mr. Hartley. Sir, yesterday as we announced our third round 
of sanctions we were joined by the G-7, which includes Japan, 
Canada and four of the major EU members. But the entire EU also 
joined.
    You could--we could--the Norwegians, who are not part of 
the EU, also adhere to EU sanctions. So we have a broad 
international coalition that is focused on bringing Russia back 
into compliance with international norms.
    Mr. Yoho. Let me ask you one other question. Do we have 
troops on the ground in Ukraine right now?
    Mr. Hartley. Sir, we do not have combat troops. I mean, it 
depends on how you define it. We have a defense attache. We 
have officials from the Pentagon that visit. But I think the 
simple answer is no.
    Mr. Yoho. Mr. Chairman, I yield back. Thank you.
    Mr. Poe. The gentleman yields back. A couple more questions 
from the Chair and then I will give the ranking member time if 
he wishes.
    Are the Russians going to give Crimea back, Mr. Hartley?
    Mr. Hartley. Sir, we are doing everything we can to 
encourage that.
    Mr. Poe. Okay. I know we are doing that but are they going 
to give it back, at the end of the day? Is it going to be part 
of Ukraine or is it going to be part of Russia?
    Mr. Hartley. Sir, it is our policy that it remains a part 
of Ukraine and should be returned to Ukrainian control.
    Mr. Poe. So you don't know. How about you, Ms. Friedt?
    Ms. Friedt. I agree with Mr. Hartley.
    Mr. Poe. Okay. We don't know. The 20 kidnapped election 
watchers--who kidnapped them?
    Mr. Hartley. Sir, there were--it was a Vienna Document 
inspection team. They weren't election observers. It was--the 
team originally--it was composed of eight Europeans led by the 
Germans and they had five Ukrainian escorts with them. They 
were kidnapped by pro-Russia individuals or a pro-Russia group 
in Eastern Ukraine.
    Mr. Poe. Okay. What were they doing in Eastern Ukraine? You 
say they were inspectors of what?
    Mr. Hartley. They were there under the Vienna Document, 
sir. All 57 nations that are participating states in the 
Organization for Security and Cooperation in Europe to include 
Russia have agreed to a set of measures that are intended to 
build confidence among the partners--among the participants.
    Part one mechanism of that is our inspections that each 
participating state is obliged to receive a certain number of 
inspections every year. But they can also offer voluntary 
inspections.
    Mr. Poe. So they went over there for inspections of what?
    Mr. Hartley. They were there to inspect Ukrainian military 
installations and deployments but also to----
    Mr. Poe. And they were kidnapped by Russian sympathizers?
    Mr. Hartley. Correct, sir.
    Mr. Poe. All right. Last question. Is Europe slow walking 
sanctions because they are concerned about the fact that many 
of them are totally dependent on Russia for their energy and 
that Russia may then just retaliate? Is that one of their 
concerns about sanctions?
    Mr. Meeks asked about the Europeans and their not being too 
supportive, as we would hope in this. Is that part of the 
reason or do you know, Mr. Hartley?
    Mr. Hartley. Both we and the Europeans are looking for ways 
for sanctions that will maximize the impact on the Russians 
while minimizing the impact on our own economies and 
businesses. So it is fair to say that that is a consideration 
of the Europeans, sir.
    Mr. Poe. All right. Thank you.
    I will yield to the ranking member if he has any more 
questions.
    All right. I want to thank both of our witnesses for their 
participation and any other questions that any members of the 
panel have will be put in writing and we would expect a 
response from you.
    Thank you very much for being here. The subcommittee is 
adjourned.
    [Whereupon, at 3:18 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                    Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
